September 29, 2000 


WILLIAM J. BROWN

VICE PRESIDENT, SOUTHEAST AREA OPERATIONS 


ANDERSON HODGES, JR. 

DISTRICT MANAGER, ATLANTA DISTRICT


SUBJECT:	 Audit Report - Review of the Violence Prevention and Response
          Programs in the Atlanta District (Report Number LB-AR-00-009)

This report presents the results of our review of the violence prevention and response
programs in the Atlanta District (Project Number 99EA007ER0003). We engaged a
contractor, Williams, Adley & Company, LLP, to assist us in conducting the audit. This
audit report is one of a series of reports on violence prevention and response efforts
within the Postal Service.

On the basis of our review, we concluded that required controls were not fully
implemented to reduce the potential for violence in the Atlanta District and the district’s
ability to respond to crisis situations could be improved. Although the district generally
complied with the Threat Assessment Team Guide when reacting to incidents of
violence, and also complied with some of the policies and procedures in the Crisis
Management Plan for Incidents of Violence in the Workplace, it did not comply with
other violence prevention requirements. Although the vice president for the Southeast
Area did not agree with our overall conclusions, we believe the district’s planned or
implemented actions are responsive to the recommendations and address the issues
identified in this report. Therefore, we will not pursue resolution on this disagreement at
this time. Management's comment and our evaluation of their comments are included in
the report.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions, please contact Joyce Hansen, director, Labor Management-
Rosslyn at (703) 248-2300.



Debra D. Pettitt
Acting Assistant Inspector General
 for Oversight and Business Evaluations

Attachment
cc: 	 Patrick R. Donahoe
      Yvonne D. Maguire
      Anthony J. Vegliante
      John R. Gunnels
Review of the Violence Prevention                                           LB-AR-00-009
 and Response Programs in the Atlanta District


                                   TABLE OF CONTENTS

Executive Summary                                                               i

Part I

Introduction                                                                   1

    Background                                                                 1
    Objective, Scope, and Methodology                                          1

Part II

Audit Results 	                                                                2

    Potential for Violence in the District 	                                   2

    Implementation of Violence Prevention and Response Programs                 2
    Recommendations                                                            13
    Summary of Management’s Comments                                           13
    Evaluation of Management’s Comments                                        14

Appendix A.	 Objective, Scope, and Methodology                                 16

Appendix B.	 Statistical Sampling and Projections for Physical Security        18
             Reviews and the Existence of Crisis Management Plans
             For Facilities in the Atlanta District Fiscal Years 1997 and
             1998

Appendix C.	 Sample of Crisis Management Plans On Site and Physical            20
             Security Reviews Conducted at Atlanta District Facilities
             Fiscal Years 1997 and 1998

Appendix D.	 Statistical Sampling and Projections for Employees                22
             Trained in Workplace Violence Awareness in the Atlanta
             District June 1, 1997, Through June 30, 1999

Appendix E.	 Management’s Comments                                             24
Review of the Violence Prevention                                                  LB-AR-00-009
 and Response Programs in the Atlanta District


                                   EXECUTIVE SUMMARY
 Introduction 	                This report presents the results of our review of violence
                               prevention and response efforts within the Atlanta District,
                               located in the Southeast Area. The Atlanta District was one
                               of six districts randomly selected from the nine districts
                               within the Southeast Area.

                               The Office of Inspector General (OIG) engaged a
                               contractor, Williams, Adley, & Company, LLP, to conduct
                               fieldwork and data analysis, prepare working papers, and
                               draft reports. The OIG provided technical support, statistical
                               projections, and quality assurance reviews. The OIG and
                               the contractor prepared the final report.

                               Our objective was to determine whether the Atlanta District
                               implemented Postal Service policies regarding violence
                               prevention and response programs.

 Results in Brief	             On the basis of the review, we concluded that required
                               controls were not fully implemented to reduce the potential
                               for violence in the Atlanta District. The district generally
                               complied with the Threat Assessment Team Guide when
                               reacting to incidents of violence. The district:

                               •	 Developed and enforced a zero tolerance policy.

                               •	 Established Threat Assessment and Crisis Management
                                  Teams.

                               •	 Provided initial team orientation training.

                               The district also complied with some of the policies and
                               procedures outlined in the Crisis Management Plan for
                               Incidents of Violence in the Workplace.

                               However, we found that although the district appointed
                               officials to serve on its Threat Assessment Team in
                               March 1998, the team did not begin implementing the
                               Threat Assessment Team Guide policies and procedures
                               until August 1999. Also, the district did not fully implement
                               required proactive strategies designed to prevent violence
                               from occurring, as required by the guide. Officials told us
                               the team did not adhere to all the established policies and
                               procedures because they did not believe the policies and



                                                 i
Review of the Violence Prevention                                                   LB-AR-00-009
 and Response Programs in the Atlanta District


                               procedures were mandatory requirements. As a result,
                               required controls were not fully implemented to reduce the
                               potential for violence in the workplace.

                               Our audit disclosed the Atlanta District did not:

                               •   Conduct annual physical security reviews.
                               •   Monitor and evaluate climate indicators.
                               •   Engage in case management.
                               •   Measure team performance.
                               •   Mandate violence awareness training.

                               In addition, the district did not ensure receipt of local,
                               customized crisis management plans at all facilities in
                               accordance with the Crisis Management Plan for Incidents
                               of Violence in the Workplace. We used a statistical sample
                               to project that as many as 318 (89 percent) of the
                               358 Atlanta District facilities did not have a copy of their
                               local, customized plan on site. (See Appendices B and C.)

 Summary of 	                  We recommended the vice president, Southeast Area
 Recommendations 	             Operations, direct the Atlanta District manager to implement
                               six recommendations designed to ensure controls are
                               implemented to improve the effectiveness of the district’s
                               violence prevention and response programs.

 Summary of                    The vice president Southeast Area Operations observed
 Management’s                  that the OIG report focused on the condition of the violence
 Comments                      awareness programs in fiscal year (FY) 1997 and 1998. He
                               stated that because the OIG based its August 2000
                               conclusions on data obtained before June 1999 (the
                               majority of which is FY 1997 and FY 1998), the conclusions
                               are somewhat misleading. The vice president emphasized
                               that the Southeast Area remains committed to the
                               continuous improvement of the violence prevention and
                               response programs and that instructions would be issued to
                               district managers to reinforce the need to implement the
                               controls necessary to improve the effectiveness of the
                               programs.

                               The Atlanta District manager accepted our conclusions and
                               recommendations as to where the Atlanta district was
                               overall at the time of the review, stating that “great strides”
                               had been made in strengthening and improving programs




                                                 ii
Review of the Violence Prevention                                                  LB-AR-00-009
 and Response Programs in the Atlanta District


                               since the review. He provided a list of actions planned or
                               taken to insure compliance with the recommendations.

                               We have summarized management’s comments in the
                               report and included the full text of the comments in
                               Appendix E.

 Overall Evaluation of         While we disagree that the OIG report was misleading and
 Management’s                  focused on the condition of the violence awareness
 Comments                      programs in FY 1997 and 1998, using data from those fiscal
                               years was necessary because they were the latest complete
                               fiscal years at the time of our visit. However, interviews with
                               postal officials regarding their implementation of proactive
                               strategies occurred in September 1999.

                               Although the vice president for the Southeast Area did not
                               agree with our overall conclusions, we believe the district’s
                               planned or implemented actions are responsive to the
                               recommendations and address the issues identified in this
                               report.




                                                 iii
Review of the Violence Prevention                                                              LB-AR-00-009
 and Response Programs in the Atlanta District


                                              INTRODUCTION
    Background                       The Postal Service recognizes the importance of ensuring
                                     the safety of its employees by creating and maintaining a
                                     work environment that is violence-free. This concept
                                     emphasizes using a viable workplace violence prevention
                                     program as the first step in helping to ensure a violence-free
                                     workplace. An effective program depends on a universal
                                     zero tolerance policy and a zero tolerance action plan that is
                                     consistently implemented for the management of threats,
                                     assaults, and other inappropriate workplace behavior.

                                     The Postal Service established the following initiatives and
                                     strategies to prevent and minimize the potential risk for
                                     violence in the workplace:

                                     •	 The Joint Statement on Violence and Behavior in the
                                        Workplace states the Postal Service’s position that
                                        violent and inappropriate behavior will not be tolerated
                                        by anyone at any level of the Postal Service.

                                     •	 The Threat Assessment Team Guide, Publication 108,
                                        and the Crisis Management Plan for Incidents of
                                        Violence in the Workplace, Publication 107,1 require
                                        districts to develop appropriate threat assessment and
                                        crisis management teams, as well as team plans of
                                        operation.

                                     •	 The Administrative Support Manual requires security
                                        control officers or their designees to conduct annual
                                        physical security reviews at all facilities.

    Objective, Scope, and            Our objective was to determine whether the Atlanta District
    Methodology                      implemented Postal Service policies regarding violence
                                     prevention and response programs.

                                     The Office of Inspector General (OIG) engaged a
                                     contractor to conduct fieldwork and data analysis, prepare
                                     working papers, and draft reports. The OIG provided
                                     technical support, statistical projections, and quality
                                     assurance reviews. The OIG and the contractor prepared
                                     the final report. (See Appendix A for complete Objective,
                                     Scope, and Methodology details.)

1
    The Crisis Management Plan for Incidents of Violence in the Workplace is under revision.



                                                           1
                                                Restricted Information
Review of the Violence Prevention                                                    LB-AR-00-009
 and Response Programs in the Atlanta District


                                        AUDIT RESULTS
 Potential for Violence        On the basis of the review, we concluded that required
 in the District               controls were not fully implemented to reduce the potential
                               for violence in the Atlanta District and the district’s ability to
                               respond to crisis situations could be improved. Although the
                               district generally complied with the Threat Assessment
                               Team Guide when reacting to incidents of violence and also
                               complied with some of the policies and procedures in the
                               Crisis Management Plan for Incidents of Violence in the
                               Workplace, it did not comply with other violence prevention
                               requirements.

                               Districts that do not comply with these requirements face an
                               increased risk for violence in their facilities. Such violence
                               increases stress, inflicts emotional wounds, and lowers
                               employee morale. Organizationally, it diminishes credibility,
                               decreases productivity, creates work-specific tension, and
                               may lead to damage of property.

 Implementation of             The Atlanta District generally complied with the Threat
 Violence Prevention           Assessment Team Guide when reacting to incidents of
 and Response                  violence. The district:
 Programs
                               •	 Developed and enforced a zero tolerance policy.

                               •	 Established Threat Assessment and Crisis Management
                                  Teams.

                               •	 Provided initial team orientation training.

                               The district also complied with some of the policies and
                               procedures outlined in the Crisis Management Plan for
                               Incidents of Violence in the Workplace.

                               However, we found that although the district appointed
                               officials to serve on its Threat Assessment Team in
                               March 1998, the team did not begin implementing the
                               Threat Assessment Team Guide policies and procedures
                               until August 1999. Also, the district did not fully implement
                               required proactive strategies designed to prevent violence
                               from occurring, as required by the guide. Officials told us
                               the team did not adhere to all the established policies and
                               procedures because they did not believe the policies and
                               procedures were mandatory requirements. As a result,



                                                 2
Review of the Violence Prevention                                                                         LB-AR-00-009
 and Response Programs in the Atlanta District


                                     required controls were not fully implemented to reduce the
                                     potential for violence in the workplace.

                                     Our audit disclosed the Atlanta District did not:

                                     •   Conduct annual physical security reviews.

                                     •   Monitor and evaluate climate indicators.

                                     •   Engage in case management.

                                     •   Measure team performance.

                                     •   Mandate violence awareness training.

                                     In addition, the district did not ensure receipt of local,
                                     customized crisis management plans at all facilities in
                                     accordance with the Crisis Management Plan for Incidents
                                     of Violence in the Workplace. We used a statistical sample
                                     to project that as many as 318 (89 percent) of the
                                     358 Atlantic District facilities did not have a copy of their
                                     local, customized plan on site. (See Appendices B and C.)

    Physical Security                The district did not conduct annual physical security reviews
    Reviews                          at all facilities as mandated by the Postal Service
                                     Administrative Support Manual. District officials told us
                                     training on how to conduct the reviews had not been
                                     provided to officials at all the district’s facilities.

                                     The Postal Service Administrative Support Manual,
                                     Chapter 2, Section 27, requires the security control officer or
                                     designee to conduct annual physical security reviews at all
                                     Postal Service facilities to ensure that the appropriate
                                     attention is given to security issues.2

                                     We used a statistical sample to project that the Atlanta
                                     District conducted no more than 59 (16 percent) of the
                                     358 required annual physical security reviews in FY 1997.
                                     In FY 1998, the district conducted no more than
                                     86 (24 percent) of the 358 required annual physical security
                                     reviews. (See Appendices B and C.)


2
  The chief postal inspector is designated as the security officer for the Postal Service. The security control officers
located at each postal facility liaison with the Postal Inspection Service on all security matters.




                                                            3
Review of the Violence Prevention                                                                     LB-AR-00-009
 and Response Programs in the Atlanta District


                                     The lack of physical security reviews at Postal Service
                                     facilities may increase the risk of workplace violence or the
                                     loss or destruction of Postal Service property and the mail.

    Climate Indicators 	             We found that the Atlanta District did not monitor and
                                     evaluate climate indicators as required by the Threat
                                     Assessment Team Guide. According to the Human
                                     Resources manager, the Atlanta District Threat Assessment
                                     Team does not have a formal process to monitor the
                                     workplace climate or events that may escalate the potential
                                     for violence in the workplace. As a result, controls
                                     associated with identifying and assessing indicators were
                                     not used to reduce the potential for violence in the
                                     workplace.

                                     The guide outlines several climate indicators that are
                                     relevant for review when making such determinations.
                                     Among those indicators are grievances, Equal
                                     Employment Opportunity complaints, referrals to the
                                     Employee Assistance Program, and labor-management
                                     relationships.3

                                     We reviewed several climate indicators that management
                                     could use as benchmarks to assess the workplace climate
                                     and identify locations that may require a climate
                                     assessment.




3
    We considered the results of the Voice of the Employee surveys as an indicator of labor-management relationships.




                                                           4
Review of the Violence Prevention                                                              LB-AR-00-009
 and Response Programs in the Atlanta District



                                 Grievances. Exhibit 1 shows the Atlanta District had the
                                 fifth highest ratio (22:100) in the Southeast Area of step 3
                                 grievance appeals to employees, for the period June 1,
                                 1997, through June 30, 1999.4




                                 For the same period, Exhibit 2 shows the district had the
                                 fifth highest ratio (17:100) of step 3 contract-related
                                 grievance appeals to employees.




4
  In a report entitled, “U.S. Postal Service: Little Progress Made in Addressing Persistent Labor-Management
Problems,” October 1997, GAO/GGD-98-1, GAO reported that a ratio of 13:100 grievances to employees was a high
ratio. Union and management officials did not dispute this claim.




                                                      5
Review of the Violence Prevention                                                 LB-AR-00-009
 and Response Programs in the Atlanta District



                               The district had one of the third highest ratios (5:100) of
                               step 3 discipline-related grievance appeals to employees,
                               for the same period, as shown in Exhibit 3.




                               Equal Employment Opportunity Complaints. Exhibit 4
                               shows that during the period June 1, 1997, to June 30,
                               1999, the district had the second lowest ratio (1:31) of Equal
                               Employment Opportunity formal complaints to employees, in
                               the Southeast Area.




                                                 6
Review of the Violence Prevention                                                                    LB-AR-00-009
 and Response Programs in the Atlanta District



                                   Employee Assistance Program Cases. For the same
                                   period, the district had the second lowest ratio (1:12) of
                                   total pre-case activity5 Employee Assistance Program
                                   cases per employee as depicted in Exhibit 5.




5
  The total pre-case activity contacts include all employees, family members, or supervisors who made contact with
the Employee Assistance Program either by telephone or in-person to set up an appointment with an Employee
Assistance Program counselor.




                                                         7
Review of the Violence Prevention                                                                      LB-AR-00-009
 and Response Programs in the Atlanta District



                                   Voice of the Employee Survey Results. A majority of
                                   employees who responded to the Voice of the Employee
                                   survey6 in the Atlanta District were generally satisfied with
                                   their work environment. As shown in Exhibits 6 and 7, the
                                   number of employees who responded favorably to their
                                   workplace environment ranged from 48 percent for
                                   Quarter 4 of 1998, to about 51 percent in Quarters 1, 2
                                   and 3 of 1999. The number of employees who responded
                                   unfavorably to their workplace environment, ranged from
                                   29 percent in Quarter 4, 1998, to about 26 percent in
                                   Quarters 1, 2 and 3, 1999. In addition, about 22 percent
                                   of the employees, who responded for the same quarters,
                                   remained neutral.




6
  The Voice of the Employee survey is a data collection instrument that the Postal Service has established to help
improve workplace relationships and ensure that all employees are treated with fairness, feel safe in their workplace,
have opportunities to participate and take pride in being postal employees.




                                                          8
Review of the Violence Prevention                                                  LB-AR-00-009
 and Response Programs in the Atlanta District




                               While these indicators cannot be used as the sole basis for
                               reaching conclusions concerning the district’s workplace
                               environment, the Threat Assessment Team can use them to
                               assess the potential for violence in the district.

                               Climate Assessments. The Atlanta District conducted two
                               climate assessments during our audit period. However, the
                               assessments were not a result of the district’s evaluation of
                               any of the climate indicators discussed earlier. The district’s
                               Human Resources manager told us the district conducted
                               climate assessments based on requests made by managers
                               in the district. He told us the Atlanta District Threat
                               Assessment Team does not have a formal process to
                               monitor the workplace climate or events that may escalate
                               the potential for violence in the workplace. Routine analysis
                               of climate indicators may have identified the need for
                               climate assessments at these sites before problems
                               occurred.

                               For example, the plant manager requested a work climate
                               assessment in April 1997 at a processing and distribution
                               center. A new supervisor instituted operational changes at
                               the facility, which negatively impacted employee morale.
                               Although the assessment found no imminent danger to
                               supervisors, employees, or in the workplace, there were
                               significant indications suggesting the need for a proactive
                               plan of action. The action plan included remedial training in



                                                 9
Review of the Violence Prevention                                                LB-AR-00-009
 and Response Programs in the Atlanta District


                               communications and interpersonal skill building for the
                               supervisor, and a six-month period of monitoring the
                               worksite.

                               In addition, the district’s Employee Assistance Program
                               counselors conducted a work climate assessment in
                               June 1998 at a post office. The Employee and Workplace
                               Intervention Analyst requested the assessment due to
                               conflicts between a supervisor and craft employees. The
                               assessment found no imminent threats of violence present
                               in the workplace. The counselors recommended open and
                               honest discussions between managers and all employees
                               concerning the dangers of violent behavior.

                               The district could improve its process for evaluating the
                               workplace climate by proactively identifying and monitoring
                               sites or situations that have the potential for violence.
                               Reviewing the indicators on a periodic basis could provide
                               valuable information about conflict in district facilities.

 Case Management               The Atlanta District Threat Assessment Team did not
                               always follow up to ensure its recommendations for
                               addressing threatening incidents and hostile work
                               environments were implemented, as required by the Threat
                               Assessment Team Guide. The district Human Resources
                               manager told us that the district did not follow the guide
                               because he did not believe it was mandatory. A district that
                               does not follow up on risk abatement plans could contribute
                               toward an unsafe workplace for employees.

                               The Threat Assessment Team Guide requires the threat
                               assessment team engage in case management of threats,
                               including developing a risk abatement plan and engaging in
                               follow up. We found that the team did not always follow up
                               to ensure its recommendations were implemented to
                               resolve workplace issues. Our review of 36 cases showed
                               that 20 did not receive follow-up review.

 Measurement of Threat The Atlanta District Threat Assessment Team did not
 Assessment Team       establish performance measures as required by the Threat
 Performance           Assessment Team Guide because the team did not
                       consider this as a mandatory requirement. According to the
                       Employee and Workplace Intervention Analyst, the team is
                       in the process of reviewing the guide to discuss what needs
                       to be done to accomplish the measurement of team




                                                 10
Review of the Violence Prevention                                                  LB-AR-00-009
 and Response Programs in the Atlanta District


                               performance in the future. Without performance measures,
                               the team could not objectively measure the effect their
                               violence prevention efforts had on workplace climate and
                               operations.

                               Performance measures help reduce the risk of violence in
                               the workplace because they provide objective information to
                               management on baseline performance and measure the
                               effect of the violence prevention program. Objective data
                               can be obtained through the use of surveys, the numbers
                               and types of threats and assaults, the tracking system, and
                               post-incident analysis of each violent incident.

 Violence Awareness            The district did not provide workplace violence awareness
 Training                      training for all district managers, supervisors, and craft
                               employees in accordance with the Threat Assessment
                               Team Guide because district officials did not consider the
                               training mandatory. Employees who have not received
                               violence awareness training may not be effective in
                               preventing violence in the workplace.

                               The Threat Assessment Team Guide states that every
                               Postal Service manager and supervisor should complete
                               eight hours of workplace violence awareness program
                               training and four hours of follow up training. Training topics
                               should include defusing a difficult situation, and providing
                               effective supervision. In September 1998, Postal Service
                               management mandated one hour of violence awareness
                               training for all craft employees, supervisors, and managers.

                               The Atlanta District’s workplace violence awareness training
                               consisted of:

                               •	 An eight-hour workplace violence awareness training
                                  course for managers and supervisors.

                               •	 A condensed four-hour workplace violence awareness
                                  training course primarily for managers and supervisors.

                               •	 A one-hour video, or portions thereof, available to all
                                  employees.

                               •	 A team training of the threat assessment and crisis
                                  management teams.




                                                 11
Review of the Violence Prevention                                                                       LB-AR-00-009
 and Response Programs in the Atlanta District


                                      •	 An introduction to workplace violence awareness for new
                                         employees.7

                                      •	 Stand-up sessions on a recurring basis for all employees
                                         at the district’s facilities.8

                                      •	 Television displays concerning workplace violence
                                         shown at the facilities for viewing by all employees.

                                      The Human Resources manager told us that craft
                                      employees located in the district facilities received some
                                      training during orientation, stand-up talks, video
                                      presentations, and from other Postal Service publications.
                                      However, he could not provide training records to support
                                      who attended and when the training occurred. In that
                                      regard, it is unknown which craft employees in the district,
                                      received violence awareness training. We projected that no
                                      more than 713 (6 percent) of the 12,615 craft employees in
                                      the Atlanta District received the required one-hour training
                                      course. (See Appendix D.)

                                      According to the Human Resources manager, the district
                                      did not provide workplace violence awareness training for
                                      craft employees because it did not receive a mandate from
                                      Postal Service Headquarters that craft employees were to
                                      receive the training.

                                      The Postal Service has recognized violence awareness
                                      training for supervisors, managers, and craft employees as
                                      a vital component in preventing violence in the workplace.
                                      This training is mandatory because employees need
                                      effective tools to recognize the warning signs of violence
                                      and possibly defuse difficult situations.

    Crisis Management                 The Atlanta District did not ensure receipt of local,
    Plans Available at                customized crisis management plans at all district facilities
    Facilities                        in accordance with the Crisis Management Plan for
                                      Incidents of Violence in the Workplace. Officials at some of
                                      the district facilities stated they could not locate the plans.

                                      We used a statistical sample to project that as many as
                                      318 (89 percent) of the 358 facilities in the Atlanta District

7
    We could not verify attendance at the orientation training because a record of attendees was not kept.
8
    We could not verify attendance at the stand-up sessions because a record of attendees was not kept.




                                                           12
Review of the Violence Prevention                                                  LB-AR-00-009
 and Response Programs in the Atlanta District


                               did not have a copy of their local, customized plan on site.
                               (See Appendices B and C.)

                               Facilities that do not have crisis management plans on site
                               may not have the necessary information to manage a crisis
                               through to a successful conclusion.

 Recommendations               We recommend the vice president, Southeast Area
                               Operations, direct the Atlanta District manager to implement
                               controls to improve the effectiveness of the violence
                               prevention and response programs. Specifically:

                               1. Provide the appropriate training to security control
                                  officers.

                               2. Conduct annual physical security reviews at all district
                                  facilities.

                               3. Monitor and evaluate climate indicators to identify
                                  conflict that could lead to violence in the workplace.

                               4. Follow up on the implementation of all risk abatement
                                  plans for identified threats and hostile work
                                  environments.

                               5. Establish performance measures to gauge team
                                  performance.

                               6. Mandate attendance at violence awareness training for
                                  all supervisors, managers, and craft employees.

                               7. Ensure receipt of local, customized crisis management
                                  plans at all facilities.

 Summary of                    The vice president Southeast Area Operations observed
 Management’s                  that the OIG report focused on the condition of the violence
 Comments                      awareness programs in FY 1997 and 1998. He stated that
                               because the OIG based its August 2000 conclusions on
                               data obtained before June 1999 (the majority of which is FY
                               1997 and FY 1998), the conclusions are somewhat
                               misleading. He added that the report does not reference any
                               information/data during the past year (data pre-dates June
                               1999). For example, the vice president pointed out that the
                               Southeast Area mandated the necessary Violence
                               Awareness Training in September 1999 for FY 2000 and



                                                 13
Review of the Violence Prevention                                                   LB-AR-00-009
 and Response Programs in the Atlanta District


                               that training has now been fully completed and documented.
                               The vice president emphasized that the Southeast Area
                               remains committed to the continuous improvement of the
                               violence prevention and response programs and that
                               instructions would be issued to district managers to
                               reinforce the need to implement the controls necessary to
                               improve the effectiveness of the programs.

                               The Atlanta District manager accepted our conclusions and
                               recommendations as to where the Atlanta District was
                               overall at the time of the review, stating that “great strides”
                               had been made in strengthening and improving programs
                               since the review. The district managers stated that security
                               control officers have been trained, and that security reviews
                               were conducted in May 1999 and June 2000. He also
                               stated that the threat assessment team meets twice each
                               accounting period and that workplace climate assessments
                               are conducted based on indicators and/or referrals.
                               Additionally, he noted that actions are in place to develop
                               follow-up protocol for risk abatements, establish
                               measurement of threat assessment team performance,
                               conduct the mandated violence awareness training, and
                               provide plants with customized crisis management plans.

                               We have summarized management’s comments in the
                               report and included the full text of the comments in
                               Appendix E.

 Evaluation of                 While we disagree that the OIG report was misleading and
 Management’s                  focused on the condition of the violence awareness
 Comments                      programs in FY 1997 and 1998, using data from those fiscal
                               years was necessary because they were the latest complete
                               fiscal years at the time of our visit. However, interviews with
                               postal officials regarding their implementation of proactive
                               strategies occurred in September 1999. We do
                               acknowledge that some time lapsed between the
                               completion of our fieldwork and release of our draft report to
                               management due to the application of this review at 24
                               other districts. Yet, we believe the report presents a fair
                               portrayal of the district’s threat assessment program.




                                                 14
Review of the Violence Prevention                                                  LB-AR-00-009
 and Response Programs in the Atlanta District


                               Although the vice president for the Southeast Area did not
                               agree with our overall conclusions, we believe the district’s
                               planned or implemented actions are responsive to the
                               recommendations and address the issues identified in this
                               report.




                                                 15
Review of the Violence Prevention                                                                     LB-AR-00-009
 and Response Programs in the Atlanta District


          APPENDIX A. OBJECTIVE, SCOPE, AND METHODOLOGY
The Office of Inspector General (OIG) and the contractor reviewed applicable laws,
policies, procedures, climate assessments, and other documents, such as the Postal
Inspection Service’s Assault and Threats Incident Reports and investigative worksheets.
The OIG and contractor also reviewed United States General Accounting Office (GAO)
reports related to labor-management issues.

The OIG and contractor interviewed Postal Service officials in the Atlanta District,
Southeast Area, and headquarters to obtain information about the Postal Service
workplace environment, and the procedures and policies implemented to ensure a safe
and violence-free workplace.

To determine the district's compliance with policies and procedures, the OIG and
contractor reviewed the district's Threat Assessment Team activities, zero tolerance
policy, and crisis management plan. The OIG and contractor compared the activities,
policies, and plans to the Postal Service requirements for violence prevention and
response strategies. The district's initiatives for addressing workplace environmental
climate issues, including training programs on violence prevention and response, were
also reviewed.

The OIG and contractor reviewed climate indicators outlined in the Threat Assessment
Team Guide that may help the Threat Assessment Team develop preventive measures
to moderate risk and liability. Those climate indicators were the numbers of employee
grievances, Equal Employment Opportunity complaints, and Employee Assistance
Program cases for all districts in the Southeast Area, including the Atlanta District, for
the period of June 1, 1997, through June 30, 1999.9 For the same period, the OIG and
contractor reviewed the workplace climate assessments for the Atlanta District. The
OIG and contractor also reviewed results from the 1998 and 1999 Voice of the
Employee surveys conducted in the Atlanta District. We reviewed this data as
indicators of conflict that could lead to violence in the Atlanta District. The OIG and
contractor compared some of the indicators in the Atlanta District to the same indicators
in other districts within the Southeast Area.10

For fiscal years (FY) 1997 and 1998, the OIG projected the number of facilities where
district officials conducted annual physical security reviews, and maintained crisis
management plans on site.11 We used statistical sampling methodologies to determine
these numbers. (See Appendices B and C.)


9
  The OIG selected this audit period because Postal Service published the Threat Assessment Team Guide and 

Crisis Management Plan for Incidents of Violence in the Workplace in May 1997. 

10
   The OIG obtained this data from the Postal Service databases but did not verify the accuracy of the data.
11
   The OIG obtained this data from the Postal Service database. We did not verify the accuracy of the data, however, 

the audit team made every effort to include only sites that fell under Postal Service violence prevention and threat 

assessment guidelines. The team effort, therefore, included removing locations such as contractor-only facilities, 

parking lots, land, and antenna sites from the data provided, to arrive at the facility population size. 





                                                         16
Review of the Violence Prevention                                         LB-AR-00-009
 and Response Programs in the Atlanta District


For the period June 1, 1997, through June 30, 1999, the OIG projected the number of
craft employees, supervisors, and managers who received the required number of
hours of workplace violence awareness training. We used statistical sampling
methodologies to project these numbers.12 (See Appendix D.)

The OIG and the contractor conducted the audit from September 1999 through
September 2000, in accordance with generally accepted government auditing standards
and included such tests of internal controls as considered necessary under the
circumstances. The OIG and contractor discussed the conclusions and observations
with appropriate management officials and included their comments where appropriate.




12
     See footnote number 10.




                                                 17
Review of the Violence Prevention                                                  LB-AR-00-009
 and Response Programs in the Atlanta District


                                          APPENDIX B
   STATISTICAL SAMPLING AND PROJECTIONS FOR PHYSICAL
      SECURITY REVIEWS AND THE EXISTENCE OF CRISIS
 MANAGEMENT PLANS FOR FACILITIES IN THE ATLANTA DISTRICT
                FISCAL YEARS 1997 AND 1998
Purpose of the Sampling

One of the objectives of this audit was to assess the Atlanta District’s implementation of
Postal Service policy regarding physical security reviews and crisis management plans.
In support of this objective, the audit team employed a simple random attribute sample
design that allows statistical projection of responses from individual facilities within the
Atlanta District.

Definition of the Audit Universe

The audit universe consisted of 358 facilities, such as post offices, stations, branches,
postal stores, and processing and distribution centers. The Atlanta District
management was the source of the universe data. The audit team made every effort to
clean the database to include only sites that fell under Postal Service violence
prevention and threat assessment guidelines. The team effort, therefore, included
removing locations such as contractor-only facilities, parking lots, land, and antenna
sites from the data provided, to arrive at the above-stated 358-facility population size.

Sample Design and Modifications

The audit used a simple random sample design. We randomly selected 35 facilities for
review. This sample size was planned to select facilities at the second stage of a two-
stage design and was, therefore, not designed to provide a predetermined level of
precision for an individual district projection. In changing to district-level projections, the
audit team agreed to accept whatever level of precision derived from the existing
sample size. Three separate attributes were included for the facility analysis.

Statistical Projections of the Sample Data

All attributes are projected to the universe of 358 facilities. No differences in universe
were provided for FY 1997 versus FY 1998.

Attribute 1: Physical Security Reviews Conducted In FY 1997

Because of the low number of “positive” responses in the sample, this results set was
analyzed using the hypergeometric adaptation of the binomial attribute table for controls
testing, found in the General Accounting Office’s Financial Audit Manual (the “FAM”).




                                                 18
Review of the Violence Prevention                                               LB-AR-00-009
 and Response Programs in the Atlanta District


Because the population size is small (N=358), the tabulated values (for 95 percent
reliability) are adjusted by the hypergeometric finite population correction,
((N-n)/(N-1))^0.5.

Based on a projection of the sample results, we are 95 percent confident that no more
than 59 (16 percent) of the Atlanta District facilities conducted a physical security review
in FY 1997. The unbiased point estimate is 20 facilities. (Universe: 358)

Attribute 2: Physical Security Reviews Conducted In FY 1998

The sample data were analyzed based on the estimation of a population proportion for a
simple random sample as described in Elementary Survey Sampling, Scheaffer,
Mendenhall, and Ott, c.1990.

Based on a projection of the sample results, we are 95 percent confident that no more
than 86 (24 percent) of the Atlanta District facilities conducted a physical security review
in FY 1998. The unbiased point estimate is 51 facilities. (Universe: 358)

Attribute 3: Crisis Management Plans On Site

The sample data were analyzed based on the estimation of a population proportion for a
simple random sample as described in Elementary Survey Sampling, Scheaffer,
Mendenhall, and Ott, c.1990.

Based on a projection of the sample results, we are 95 percent confident that as many
as 318 (89 percent) of the Atlanta District facilities did not have a copy of the district
crisis management plan. The unbiased point estimate is 276 facilities without the crisis
management plan. (Universe: 358)




                                                 19
Review of the Violence Prevention                                                LB-AR-00-009
 and Response Programs in the Atlanta District


                                            APPENDIX C
             SAMPLE OF CRISIS MANAGEMENT PLANS ON SITE
             AND PHYSICAL SECURITY REVIEWS CONDUCTED
                   AT ATLANTA DISTRICT FACILITIES
                     FISCAL YEARS 1997 AND 1998
                                                                                PHYSICAL
                                                                  CRISIS        SECURITY
ITEM                                                    ZIP
          TYPE OF FACILITY           LOCATION                  MANAGEMENT        REVIEWS
 NO.                                                   CODE
                                                               PLANS ON SITE   CONDUCTED
                                                                               FY 97 FY 98
   1     Main Post Office          Siloam              30665       NO           NO     NO
   2     Main Post Office          Smyrna              30080       YES          NO     NO
   3     Main Post Office          Franklin            30639       NO           NO    YES
                                   Springs
   4     Vehicle Maintenance       Atlanta             30369        NO         NO      NO
         Facility
   5     Mail Processing           Duluth              30026       YES         NO      NO
         Center
  6      Civic Center Station      Atlanta             30308        NO         NO      NO
  7      Main Post Office          Palmetto            30268        NO         NO      NO
  8      Main Post Office          Greenville          30222        NO         NO      NO
  9      Main Post Office          Canon               30520        NO         NO      NO
 10      Main Post Office          Forest Park         30297        NO         NO      NO
 11      Main Post Office          Cumming             30040        NO         NO      NO
 12      Main Post Office          Stone               30083        NO         NO      NO
                                   Mountain
 13      Main Office,              Tate                30177       YES         NO      NO
         Additional Space
 14      Peachtree City            Fayetteville        30269        NO         NO      NO
         Branch
 15      Main Post Office          Pine Lake           30072        NO         NO      NO
 16      Main Post Office          Adairsville         30103        NO         NO      NO
 17      North Corners             Cartersville        30120        NO         YES     YES
         Station
 18      North Atlanta Branch      Atlanta             30319       YES         NO      NO
 19      Main Post Office          Grayson             30017       NO          NO      NO
 20      Doraville Training        Atlanta             30340       NO          NO      NO
         Center
 21      Howell Mill/Zone 27       Atlanta             30327       NO          NO      NO
 22      Glenridge Branch          Atlanta             30342       NO          NO      NO
 23      Concord Square            Smyrna              30080       YES         NO      NO
 24      Main Post Office          Gillsville          30543       NO          NO      NO
 25      Cumberland Branch         Atlanta             30339       NO          NO      NO
         Annex




                                                  20
Review of the Violence Prevention                                               LB-AR-00-009
 and Response Programs in the Atlanta District


                                                                               PHYSICAL
                                                                 CRISIS        SECURITY
ITEM                                                   ZIP
          TYPE OF FACILITY           LOCATION                 MANAGEMENT        REVIEWS
 NO.                                                  CODE
                                                              PLANS ON SITE   CONDUCTED
                                                                              FY 97 FY 98
 26      Crown Road Vehicle        Atlanta            30304        NO          NO     NO
         Maintenance Facility
 27      Athens Square Mail        Athens             30606       NO          NO      NO
 28      Main Post Office          Hartwell           30643       YES         YES     YES
 29      Broadview Exchange        Atlanta            30324       YES         NO      NO
 30      Main Post Office          Milner             30257       NO          NO      YES
 31      Main Post Office          Dawsonville        30534       NO          NO      YES
 32      Facilities Service        Atlanta            30340       NO          NO      NO
         Office
 33      Main Post Office          Aragon             30104       NO          NO      NO
 34      Main Post Office          Shannon            30172       YES         NO      NO
 35      Main Post Office          Brooks             30205       NO          NO      NO




                                                 21
Review of the Violence Prevention                                              LB-AR-00-009
 and Response Programs in the Atlanta District



                                          APPENDIX D
    STATISTICAL SAMPLING AND PROJECTIONS FOR EMPLOYEES
         TRAINED IN WORKPLACE VIOLENCE AWARENESS
                   IN THE ATLANTA DISTRICT
                 JUNE 1, 1997, TO JUNE 30, 1999
Purpose of the Sampling

One of the objectives of this audit was to assess the Atlanta District’s implementation of
Postal Service policy to train supervisors/managers and craft employees in conflict
resolution and workplace violence awareness. In support of this objective, the audit
team conducted statistical samples of personnel from each of the two groups. A simple
random attribute sample design was used in both cases.

Definition of the Audit Universe

For the craft employee assessment, the audit universe consisted of 12,615 craft
employees in the Atlanta District. For the supervisory-level assessment, the audit
universe was a total of 1,087 supervisors and managers in the district.

All training information came from the personnel database in Minneapolis, Minnesota.

Sample Design and Modifications

The audit used a simple random sample design. We randomly selected 50 craft
employees and 50 managers and supervisors for review. This sample size was
planned to select employees at the second stage of a two-stage design and was,
therefore, not designed to provide a predetermined level of precision for an individual
district projection. In changing to district-level projections, the audit team agreed to
accept whatever level of precision derived from the existing sample size. Three
separate attributes were included for the supervisory-level training analysis.

Statistical Projections of the Sample Data

In general, the sample data were analyzed based on the estimation of a population
proportion for a simple random sample as described in Elementary Survey Sampling,
Scheaffer, Mendenhall, and Ott, c.1990.

In some cases, a low number of “positive” responses in the sample required analysis
using the hypergeometric adaptation of the binomial attribute table for controls testing,
found in the General Accounting Office’s Financial Audit Manual (the “FAM”). The
tabulated values (for 95 percent reliability) are adjusted by the hypergeometric finite
population correction, ((N-n)/(N-1))^0.5.




                                                 22
Review of the Violence Prevention                                               LB-AR-00-009
 and Response Programs in the Atlanta District



Results are presented for a one-sided confidence interval as well as the point estimate.
For the collection of supervisory attributes, the sum of the point estimates will equal the
total population. A sum of the upper bounds is meaningless because any increases in
one category would be offset by reductions in another.

Craft Employee Training Projection

Based on a projection of the sample results, we are 95 percent confident that no more
than 743 (6 percent) of the 12,615 craft employees in the Atlanta District received
training in workplace violence awareness. The unbiased point estimate is zero
employees who met the training criterion.

Supervisors and Managers: Training Projection

Based on a projection of the sample results, we are 95 percent confident that up to 443
(41 percent) of the 1,087 Atlanta District supervisors and managers received no
workplace violence awareness training. The unbiased point estimate is 30 percent, or
326 supervisors and managers, who received no subject-matter training.

Based on a projection of the sample results, we are 95 percent confident that up to 838
(77 percent) of the 1,087 Atlanta District supervisors and managers received some
subject-matter training, possibly as part of other supervisory courses ranging from 1 to
60 hours. The unbiased point estimate is 66 percent, or 717 supervisors and
managers.

Based on a projection of the sample results, we are 95 percent confident that no more
than 130 (12 percent) of the 1,087 Atlanta District supervisors and managers met or
exceeded the 12-hour subject-matter training criterion. The unbiased point estimate is
that 4 percent, or 43 supervisors and managers, met the 12-hour training criterion.




                                                 23
Review of the Violence Prevention                      LB-AR-00-009
 and Response Programs in the Atlanta District


                   APPENDIX E. MANAGEMENT’S COMMENTS




                                                 24
Review of the Violence Prevention                     LB-AR-00-009
 and Response Programs in the Atlanta District




                                                 25
Review of the Violence Prevention                     LB-AR-00-009
 and Response Programs in the Atlanta District




                                                 26
Review of the Violence Prevention                     LB-AR-00-009
 and Response Programs in the Atlanta District




                                                 27
Review of the Violence Prevention                     LB-AR-00-009
 and Response Programs in the Atlanta District




                                                 28
Review of the Violence Prevention                     LB-AR-00-009
 and Response Programs in the Atlanta District




                                                 29
